APPENDIX

1a
APPENDIX A
_________
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
_________
NIMESH PATEL, INDIVIDUALLY AND ON BEHALF OF
ALL OTHERS SIMILARLY SITUATED; ADAM PEZEN;
CARLO LICATA,
Plaintiffs-Appellees,
v.
FACEBOOK, INC.,
Defendant-Appellant.
_________
No. 18-15982
_________
D.C. No. 3:15-cv-03747-JD
_________
OPINION
_________
Appeal from the United States District Court
for the Northern District of California
James Donato, District Judge, Presiding
Argued and Submitted June 12, 2019
San Francisco, California
Filed August 8, 2019

2a
Before: Ronald M. Gould and Sandra S. Ikuta,
Circuit Judges, and Benita Y. Pearson,* District
Judge.
Opinion by Judge Ikuta
_________
SUMMARY**
Standing / Class Certification / Illinois Law
The panel affirmed the district court’s order
certifying a class under Fed. R. Civ. P. 23 of users of
Facebook, Inc., who alleged that Facebook’s facialrecognition technology violated Illinois’s Biometric
Information Privacy Act (“BIPA”).
The panel held that plaintiffs alleged a concrete
and particularized harm, sufficient to confer Article
III standing, because BIPA protected the plaintiffs’
concrete privacy interest, and violations of the
procedures in BIPA actually harmed or posed a
material risk of harm to those privacy interests.
Specifically, the panel concluded that the
development of a face template using facialrecognition technology without consent (as alleged in
this case) invades an individual’s private affairs and
concrete interests.

*

The Honorable Benita Y. Pearson, United States District
Judge for the Northern District of Ohio, sitting by designation.
**

This summary constitutes no part of the opinion of the
court. It has been prepared by court staff for the convenience of
the reader.

3a
The panel held that the district court did not abuse
its discretion in certifying the class. Specifically, the
panel rejected Facebook’s argument that Illinois’s
extraterritoriality doctrine precluded the district
court from finding predominance. The panel further
held that the district court did not abuse its
discretion in determining that a class action was
superior to individual actions in this case.
_________
COUNSEL
Lauren R. Goldman (argued), Andrew J. Pincus, and
Michael Rayfield, Mayer Brown LLP, New York,
New York, for Defendant-Appellant.
John Aaron Lawson (argued) and Rafey S.
Balabanian, Edelson PC, San Francisco, California;
Susan K. Alexander and Shawn A. Williams, Robbins
Geller Rudman & Dowd LLP, San Francisco,
California; Michael P. Canty and Corban S. Rhodes,
Labaton Sucharow LLP, New York, New York; for
Plaintiffs-Appellees.
Susan Fahringer and Nicola Menaldo, Perkins Coie
LLP, Seattle, Washington; Neal Kumar Katyal,
Hogan Lovells US LLP, Washington, D.C.; Lauren
Ruben, Perkins Coie LLP, Denver, Colorado; Thomas
P. Schmidt, Hogan Lovells US LLP, New York, New
York; Sara Solow, Hogan Lovells US LLP,
Philadelphia, Pennsylvania; for Amicus Curiae
Internet Association.
Nathan Freed Wessler, American Civil Liberties
Union, New York, New York; Rebecca K. Glenberg,
Roger Baldwin Foundation of ACLU, Chicago,

4a
Illinois; Jacob A. Snow, American Civil Liberties
Union Foundation of Northern California, San
Francisco, California; Jennifer Lynch and Adam
Schwartz, Electronic Frontier Foundation, San
Francisco, California; Joseph Jerome, Center for
Democracy & Technology, Washington, D.C.; Michael
C. Landis, Illinois PIRG Education Fund Inc.,
Chicago, Illinois; for Amici Curiae American Civil
Liberties Union, American Civil Liberties Union of
Illinois, American Civil Liberties Union Foundation
of Northern California, American Civil Liberties
Union Foundation of Southern California, Center for
Democracy & Technology, Electronic Frontier
Foundation, and Illinois PIRG Education Fund Inc.
Marc Rotenberg, Alan Butler, and John Davisson,
Electronic Privacy Information Center, Washington,
D.C., for Amicus Curiae Electronic Privacy
Information Center (EPIC).
Kelly P. Dunbar, Reginald J. Brown, Patrick J.
Carome, Jonathan G. Cedarbaum, and Samuel M.
Strongin, Wilmer Cutler Pickering Hale and Dorr
LLP, Washington, D.C.; Steven P. Lehotsky and
Jonathan D. Urick, U.S. Chamber Litigation Center,
Washington, D.C.; for Amicus Curiae Chamber of
Commerce of the United States of America.
_________
OPINION
IKUTA, Circuit Judge:
Plaintiffs’ complaint alleges that Facebook
subjected them to facial-recognition technology
without complying with an Illinois statute intended

5a
to safeguard their privacy. Because a violation of the
Illinois statute injures an individual’s concrete right
to privacy, we reject Facebook’s claim that the
plaintiffs have failed to allege a concrete injury-infact for purposes of Article III standing. Additionally,
we conclude that the district court did not abuse its
discretion in certifying the class.
I
Facebook operates one of the largest social media
platforms in the world, with over one billion active
users. Packingham v. North Carolina, 137 S. Ct.
1730, 1735 (2017). About seven in ten adults in the
United States use Facebook.1
A
When a new user registers for a Facebook account,
the user must create a profile and agree to
Facebook’s terms and conditions, which permit
Facebook to collect and use data in accordance with
Facebook’s policies. To interact with other users on
the platform, a Facebook user identifies another user
as a friend and sends a friend request. If the request
is accepted, the two users are able to share content,
such as text and photographs.
For years, Facebook has allowed users to tag their
Facebook friends in photos posted to Facebook. A tag
identifies the friend in the photo by name and
1

See John Gramlich, 10 Facts about Americans and Facebook,
Pew
Research
Ctr.
(May
16,
2019),
https://www.pewresearch.org/fact-tank/2019/05/16/facts-aboutamericans-and-facebook/.

6a
includes a link to that friend’s Facebook profile.
Users who are tagged are notified of the tag, granted
access to the photo, and allowed to share the photo
with other friends or “un-tag” themselves if they
choose.
In 2010, Facebook launched a feature called Tag
Suggestions. If Tag Suggestions is enabled, Facebook
may use facial-recognition technology to analyze
whether the user’s Facebook friends are in photos
uploaded by that user. When a photo is uploaded, the
technology scans the photo and detects whether it
contains images of faces. If so, the technology
extracts the various geometric data points that make
a face unique, such as the distance between the eyes,
nose, and ears, to create a face signature or map. The
technology then compares the face signature to faces
in Facebook’s database of user face templates (i.e.,
face signatures that have already been matched to
the user’s profiles).2 If there is a match between the
face signature and the face template, Facebook may
suggest tagging the person in the photo.
Facebook’s face templates are stored on its servers,
which are located in nine data centers maintained by
Facebook. The six data centers located in the United
States are in Oregon, California, Iowa, Texas,
Virginia,
and
North
Carolina.
Facebook’s
headquarters are in California.

2

According to Facebook, it creates and stores a template for a
user when the user (1) has been tagged in at least one photo; (2)
has not opted out of Tag Suggestions; and (3) satisfies other
privacy-based and regulatory criteria.

7a
B
Facebook users living in Illinois brought a class
action against Facebook, claiming that Facebook’s
facial-recognition technology violates Illinois law.
Class representatives Adam Pezen, Carlo Licata, and
Nimesh Patel each live in Illinois. They joined
Facebook in 2005, 2009, and 2008, respectively, and
each uploaded photos to Facebook while in Illinois.
Facebook created and stored face templates for each
of the plaintiffs.
The three named plaintiffs filed the operative
consolidated complaint in a California district court
in August 2015. The plaintiffs allege that Facebook
violated the Illinois Biometric Information Privacy
Act (BIPA), 740 Ill. Comp. Stat. 14/1 et seq. (2008),
which provides that “[a]ny person aggrieved” by a
violation of its provisions “shall have a right of
action” against an “offending party,” id. 14/20.
According to the complaint, Facebook violated
sections 15(a) and 15(b) of BIPA by collecting, using,
and storing biometric identifiers (a “scan” of “face
geometry,” id. 14/10) from their photos without
obtaining a written release and without establishing
a compliant retention schedule.3
3

Sections 15(a) and (b) of BIPA provide:
(a)
A private entity in possession of
biometric identifiers or biometric information
must develop a written policy, made available to
the public, establishing a retention schedule
and guidelines for permanently destroying
biometric identifiers and biometric information
when the initial purpose for collecting or

8a
The Illinois General Assembly enacted BIPA in
2008 to enhance Illinois’s “limited State law
obtaining such identifiers or information has
been satisfied or within 3 years of the
individual’s last interaction with the private
entity, whichever occurs first. Absent a valid
warrant or subpoena issued by a court of
competent jurisdiction, a private entity in
possession of biometric identifiers or biometric
information must comply with its established
retention schedule and destruction guidelines.
(b)
No private entity may collect, capture,
purchase, receive through trade, or otherwise
obtain a person’s or a customer’s biometric
identifier or biometric information, unless it
first:
(1)
informs the subject or the
subject’s
legally
authorized
representative in writing that a
biometric
identifier
or
biometric
information is being collected or stored;
(2)
informs the subject or the
subject’s
legally
authorized
representative in writing of the specific
purpose and length of term for which a
biometric
identifier
or
biometric
information is being collected, stored,
and used; and
(3) receives a written release executed
by the subject of the biometric identifier
or biometric information or the subject’s
legally authorized representative.
740 Ill. Comp. Stat. 14/15 (a)–(b).

9a
regulating the collection, use, safeguarding, and
storage of biometrics.” 740 Ill. Comp. Stat. 14/5(e).
BIPA defines a “biometric identifier” as including a
“scan of hand or face geometry.” Id. 14/10. 4 In a
series of findings, the state legislature provided its
views about the costs and benefits of biometric data
use. The legislature stated that “[t]he use of
biometrics is growing in the business and security
screening sectors and appears to promise
streamlined financial transactions and security
screenings,” and also noted that “[m]ajor national
corporations have selected the City of Chicago and
other locations in this State as pilot testing sites for
new applications of biometric-facilitated financial
transactions.”
Id.
14/5(a)–(b).
Nevertheless,
“[b]iometrics are unlike other unique identifiers that
are used to access finances or other sensitive
information,” because while social security numbers
can be changed if compromised by hackers, biometric
data are “biologically unique to the individual,” and
“once compromised, the individual has no recourse, is
at heightened risk for identity theft, and is likely to
withdraw from biometric-facilitated transactions.”
Id. 14/5(c). Moreover, “[t]he full ramifications of
biometric technology are not fully known.” Id. 14/5(f).
The legislature concluded that “[t]he public welfare,
4

Section 10 of BIPA defines “biometric identifier” to mean “a
retina or iris scan, fingerprint, voiceprint, or scan of hand or
face geometry.” 740 Ill. Comp. Stat. 14/10. Biometric identifiers
do not include “writing samples, written signatures,
photographs, human biological samples used for valid scientific
testing or screening, demographic data, tattoo descriptions, or
physical descriptions such as height, weight, hair color, or eye
color.” Id.

10a
security, and safety will be served by regulating the
collection, use, safeguarding, handling, storage,
retention, and destruction of biometric identifiers
and information.” Id. 14/5(g).
To further these goals, section 15 of BIPA imposes
“various obligations regarding the collection,
retention, disclosure, and destruction of biometric
identifiers and biometric information” on private
entities. Rosenbach v. Six Flags Entm’t Corp., —
N.E.3d —, 2019 IL 123186, at *4 (Ill. 2019). These
requirements include “establishing a retention
schedule and guidelines for permanently destroying
biometric identifiers and biometric information” the
earlier of three years after the individual’s last
interaction with the private entity or “when the
initial purpose for collecting or obtaining such
identifiers or information has been satisfied.” 740 Ill.
Comp. Stat. 14/15(a). The statute also requires the
private entity to notify the individual in writing and
secure a written release before obtaining a biometric
identifier. Id. 14/15(b). BIPA also provides for actual
and liquidated damages for violations of the Act’s
requirements. Id. 14/20.
C
In June 2016, Facebook moved to dismiss the
plaintiffs’ complaint for lack of Article III standing
on the ground that the plaintiffs had not alleged any
concrete injury. While Facebook’s motion to dismiss
was pending, the plaintiffs moved to certify a class
under Rule 23 of the Federal Rules of Civil
Procedure. The district court denied Facebook’s
motion to dismiss, and certified a Rule 23(b)(3) class

11a
of “Facebook users located in Illinois for whom
Facebook created and stored a face template after
June 7, 2011.” Facebook filed a timely petition for
leave to appeal the district court’s ruling under Rule
23(f). Fed. R. Civ. P. 23(f) (providing that “[a] court of
appeals may permit an appeal from an order
granting or denying class-action certification under
this rule”).
We have jurisdiction to review the district court’s
order granting class certification under 28 U.S.C.
§ 1292(e) and Rule 23(f) of the Federal Rules of Civil
Procedure. We review de novo whether the plaintiffs
have Article III standing. See In re Zappos.com, Inc.,
888 F.3d 1020, 1024 (9th Cir. 2018), as amended
(Apr. 20, 2018). The party invoking federal
jurisdiction bears the burden of establishing the
elements of Article III jurisdiction. Lujan v. Defs. of
Wildlife, 504 U.S. 555, 561 (1992). “At the pleading
stage, general factual allegations of injury resulting
from the defendant’s conduct may suffice,” and we
“presume that general allegations embrace those
specific facts that are necessary to support the
claim.” Id. (quotation and alteration omitted).
II
To establish Article III standing, a plaintiff “must
have suffered an ‘injury in fact’—an invasion of a
legally protected interest which is (a) concrete and
particularized; and (b) actual or imminent, not
conjectural or hypothetical.” Id. at 560 (cleaned up).
A plaintiff does not necessarily meet the concrete
injury requirement “whenever a statute grants a
person a statutory right and purports to authorize

12a
that person to sue to vindicate that right.” Spokeo,
Inc. v. Robins, 136 S. Ct. 1540, 1549 (2016), as
revised (May 24, 2016) (Spokeo I). In other words, for
Article III purposes, it is not enough for a plaintiff to
allege that a defendant has violated a right created
by a statute; we must still ascertain whether the
plaintiff suffered a concrete injury-in-fact due to the
violation.
A concrete injury need not be tangible. “Although
tangible injuries are perhaps easier to recognize, we
have confirmed in many of our previous cases that
intangible injuries can nevertheless be concrete.” Id.
In determining whether an intangible injury is
sufficiently concrete, we consider both history and
legislative judgment. Id. We consider history because
“it is instructive to consider whether an alleged
intangible harm has a close relationship to a harm
that has traditionally been regarded as providing a
basis for a lawsuit in English or American courts.”
Id. We must also examine legislative judgment
because legislatures are “well positioned to identify
intangible harms that meet minimum Article III
requirements.” Id.
The Supreme Court has provided some guidance for
determining whether a plaintiff has suffered a
concrete injury due to a defendant’s failure to comply
with a statutory requirement. The violation of a
statutory right that protects against “the risk of real
harm” may be sufficient to constitute injury-in-fact,
and under those circumstances a plaintiff “need not
allege any additional harm beyond the one Congress
has identified.” Id. (emphasis in original). But a
violation of a statutory procedural requirement that

13a
does not present a material risk of harm, such as
dissemination of “an incorrect zip code,” likely does
not cause a concrete injury. Id. at 1550.
In light of this guidance, we have adopted a twostep approach to determine whether the violation of
a statute causes a concrete injury. We ask “(1)
whether the statutory provisions at issue were
established to protect [the plaintiff’s] concrete
interests (as opposed to purely procedural rights),
and if so, (2) whether the specific procedural
violations alleged in this case actually harm, or
present a material risk of harm to, such interests.”
Robins v. Spokeo, Inc., 867 F.3d 1108, 1113 (9th Cir.
2017) (Spokeo II).
Other cases demonstrate these principles. In Van
Patten v. Vertical Fitness Group, LLC, for instance,
we considered a Telephone Consumer Protection Act
(TCPA) requirement prohibiting a telemarketer from
calling or texting a consumer without the consumer’s
consent. 847 F.3d 1037, 1041–43 (9th Cir. 2017). The
plaintiff alleged that a telemarketer violated this
prohibition. Id. at 1041. We held that the TCPA was
established to protect the plaintiff’s substantive right
to privacy, namely the right to be free from
unsolicited telemarketing phone calls or text
messages that “invade the privacy and disturb the
solitude of their recipients.” Id. at 1043. Because the
telemarketer’s conduct impacted this privacy right,
we concluded that the plaintiff did not need to allege
any additional harm beyond the one Congress
identified, and therefore had alleged a concrete
injury-in-fact sufficient to confer Article III standing.
Id.

14a
By contrast, in Bassett v. ABM Parking Services,
Inc., we considered a Fair Credit Reporting Act
(FCRA) requirement that businesses redact certain
credit card information, including the card’s
expiration date, on printed receipts. 883 F.3d 776,
777–78 (9th Cir. 2018). The plaintiff alleged that a
parking garage had violated this requirement by
giving him a receipt displaying his card’s full
expiration date. Id. at 778. We held that even if the
FCRA created a substantive right to the
“nondisclosure of a consumer’s private financial
information to identity thieves,” the parking garage’s
failure to redact the credit card’s expiration date did
not impact this substantive right, because no one but
the plaintiff himself saw the expiration date. Id. at
782–83. We therefore concluded that the plaintiff
had failed to allege a concrete injury-in-fact. Id. at
783.
We apply our two-step approach to this case.
A
Facebook argues that the plaintiffs’ complaint
describes a bare procedural violation of BIPA rather
than injury to a concrete interest, and therefore
plaintiffs failed to allege that they suffered an injuryin-fact that is sufficiently concrete for purposes of
standing.5 Plaintiffs, in turn, argue that Facebook’s
violation of statutory requirements amounted to a
violation of their substantive privacy rights, and so

5

Facebook does not argue that the plaintiffs’ alleged injuryin-fact is insufficiently particularized.

15a
they suffered a concrete injury for purposes of Article
III standing.
In addressing these arguments, we first consider
“whether the statutory provisions at issue were
established to protect [the plaintiff’s] concrete
interests (as opposed to purely procedural rights).”
Dutta v. State Farm Mut. Auto. Ins. Co., 895 F.3d
1166, 1174 (9th Cir. 2018) (alteration in original)
(quoting Spokeo II, 867 F.3d at 1113). Privacy rights
have long been regarded “as providing a basis for a
lawsuit in English or American courts.” Spokeo I, 136
S. Ct. at 1549. The common law roots of the right to
privacy were first articulated in the 1890s in an
influential law review article that reviewed 150
years of privacy-related case law and identified “a
general right to privacy” in various common law
property and defamation actions. Samuel D. Warren
& Louis D. Brandeis, The Right to Privacy, 4 Harv.
L. Rev. 193, 198 (1890). Courts subsequently
recognized that a distinct right to privacy existed at
common law, see, e.g., Pavesich v. New England Life
Ins. Co., 50 S.E. 68, 69–71 (Ga. 1905), and treatises
later identified four privacy torts recognized at
common law, including “unreasonable intrusion upon
the seclusion of another,”6 Restatement (Second) of

6

The Restatement (Second) of Torts § 652A(2) (1977)
provides:
The right of privacy is invaded by
(a) unreasonable
intrusion
upon
the
seclusion of another, as stated in § 652B; or

16a
Torts § 652A. Soon, “the existence of a right of
privacy [was] recognized in the great majority of the
American jurisdictions that have considered the
question.” Restatement (Second) of Torts § 652A cmt.
a.
The Supreme Court has likewise recognized the
common law roots of the right to privacy. See U.S.
Dep’t of Justice v. Reporters Comm. for Freedom of
the Press, 489 U.S. 749, 763 & n. 15 (1989)
(recognizing the common law’s protection of a privacy
right); Cox Broadcasting Corp. v. Cohn, 420 U.S. 469,
488 (1975) (noting that a right of privacy had been
recognized at common law in the majority of
American jurisdictions). We have also recognized the
common law roots of the right to privacy. See
Eichenberger v. ESPN, Inc., 876 F.3d 979, 983 (9th
Cir. 2017) (“Violations of the right to privacy have
long been actionable at common law.”); Van Patten,
847 F.3d at 1043 (“Actions to remedy defendants’
invasions of privacy, intrusion upon seclusion, and
nuisance have long been heard by American courts,
and the right of privacy is recognized by most
states.”) (citing Restatement (Second) of Torts
§ 652B).
(b) appropriation of the other’s name or
likeness, as stated in § 652C; or
(c) unreasonable publicity given to the
other’s private life, as stated in § 652D; or
(d) publicity that unreasonably places the
other in a false light before the public, as
stated in § 652E.

17a
These common law privacy rights are intertwined
with constitutionally protected zones of privacy. See
Gibson v. Fla. Legislative Investigation Comm., 372
U.S. 539, 569 n.7 (1963) (Douglas, J., concurring) (“A
part of the philosophical basis of [the First
Amendment right to privacy] has its roots in the
common law.”); see also Kyllo v. United States, 533
U.S. 27, 34 (2001) (“[I]n the case of the search of the
interior of homes—the prototypical and hence most
commonly litigated area of protected privacy—there
is a ready criterion, with roots deep in the common
law, of the minimal expectation of privacy that exists,
and that is acknowledged to be reasonable.”
(emphasis in original)). As one commentator summed
up, “[d]espite the differences between tort law and
constitutional protections of privacy, it is still
reasonable to view the interests and values that each
protect as connected and related.” Eli A. Meltz, Note,
No Harm, No Foul? “Attempted” Invasion of Privacy
and the Tort of Intrusion Upon Seclusion, 83
Fordham L. Rev. 3431, 3437 (2015).
In its recent Fourth Amendment jurisprudence, the
Supreme Court has recognized that advances in
technology can increase the potential for
unreasonable intrusions into personal privacy. These
concerns extend to sense-enhancing thermal
imaging, see Kyllo, 533 U.S. at 34; GPS monitoring
for extended periods of time, see United States v.
Jones, 565 U.S. 400, 416, 428 (2012) (Sotomayor, J.,
concurring, and Alito, J., concurring) (five justices
agreeing that privacy concerns are raised by such
monitoring, as later recognized in Carpenter v.
United States, 138 S. Ct. 2206, 2215 (2018)); modern

18a
cell phone storage of “vast quantities of personal
information,” Riley v. California, 573 U.S. 373, 386
(2014); and technological advances in tracking cellsite location information, see Carpenter, 138 S. Ct. at
2215. Technological advances provide “access to a
category of information otherwise unknowable,” id.
at 2218, and “implicate privacy concerns” in a
manner as different from traditional intrusions as “a
ride on horseback” is different from “a flight to the
moon,” Riley, 573 U.S. at 393.
In light of this historical background and the
Supreme Court’s views regarding enhanced
technological intrusions on the right to privacy, we
conclude that an invasion of an individual’s biometric
privacy rights “has a close relationship to a harm
that has traditionally been regarded as providing a
basis for a lawsuit in English or American courts.”
Spokeo I, 136 S. Ct. at 1549. “[B]oth the common law
and the literal understandings of privacy encompass
the individual’s control of information concerning his
or her person.” Reporters Comm., 489 U.S. at 763. As
in the Fourth Amendment context, the facialrecognition technology at issue here can obtain
information that is “detailed, encyclopedic, and
effortlessly compiled,” which would be almost
impossible without such technology. Carpenter, 138
S. Ct. at 2216. Once a face template of an individual
is created, Facebook can use it to identify that
individual in any of the other hundreds of millions of
photos uploaded to Facebook each day, as well as
determine when the individual was present at a
specific location. Facebook can also identify the
individual’s Facebook friends or acquaintances who

19a
are present in the photo. Taking into account the
future development of such technology as suggested
in Carpenter, see 138 S. Ct. at 2216, it seems likely
that a face-mapped individual could be identified
from a surveillance photo taken on the streets or in
an office building. Or a biometric face template could
be used to unlock the face recognition lock on that
individual’s cell phone. We conclude that the
development of a face template using facialrecognition technology without consent (as alleged
here) invades an individual’s private affairs and
concrete interests. Similar conduct is actionable at
common law.
The judgment of the Illinois General Assembly,
which is “instructive and important” to our standing
inquiry, Spokeo II, 867 F.3d at 1112 (quotation
omitted), supports the conclusion that the capture
and use of a person’s biometric information invades
concrete interests. As noted above, in enacting BIPA,
the General Assembly found that the development
and use of biometric data presented risks to Illinois’s
citizens, and that “[t]he public welfare, security, and
safety will be served by regulating the collection, use,
safeguarding, handling, storage, retention, and
destruction of biometric identifiers and information.”
740 Ill. Comp. Stat. 14/5(g). Interpreting the statute,
the Illinois Supreme Court concluded that “[t]he
strategy adopted by the General Assembly through
enactment of [BIPA]” was to protect individuals’
“biometric privacy” by (1) “imposing safeguards to
insure that individuals’ and customers’ privacy
rights in their biometric identifiers and biometric
information are properly honored and protected to

20a
begin with, before they are or can be compromised,”
and (2) “by subjecting private entities who fail to
follow the statute’s requirements to substantial
potential liability.” Rosenbach, 2019 IL 123186, at
*6–7. Based on this interpretation, the Illinois
Supreme Court concluded that an individual could be
“aggrieved” by a violation of BIPA whenever “a
private entity fails to comply with one of section 15’s
requirements,” because “that violation constitutes an
invasion, impairment, or denial of the statutory
rights of any person or customer whose biometric
identifier or biometric information is subject to the
breach.” Id. at *6. Individuals are not required to
sustain a “compensable injury beyond violation of
their statutory rights before they may seek
recourse.” Id. at *7.
Therefore, we conclude that “the statutory
provisions at issue” in BIPA were established to
protect an individual’s “concrete interests” in
privacy, not merely procedural rights. Spokeo II, 867
F.3d at 1113.
B
We next turn to the question “whether the specific
procedural violations alleged in this case actually
harm, or present a material risk of harm to, such
interests.” Spokeo II, 867 F.3d at 1113. Facebook’s
relevant conduct, according to the complaint, is the
collection, use, and storage of biometric identifiers
without a written release, in violation of section
15(b), and the failure to maintain a retention
schedule or guidelines for destroying biometric
identifiers, in violation of section 15(a). The plaintiffs

21a
allege that a violation of these requirements allows
Facebook to create and use a face template and to
retain this template for all time. Because the privacy
right protected by BIPA is the right not to be subject
to the collection and use of such biometric data,
Facebook’s alleged violation of these statutory
requirements would necessarily violate the plaintiffs’
substantive privacy interests. As the Illinois
Supreme Court explained, the procedural protections
in BIPA “are particularly crucial in our digital world”
because “[w]hen a private entity fails to adhere to
the statutory procedures . . . the right of the
individual to maintain his or her biometric privacy
vanishes into thin air.” Rosenbach, 2019 IL 123186,
at *6 (cleaned up). Accordingly, we conclude that the
plaintiffs have alleged a concrete injury-in-fact
sufficient to confer Article III standing.
We reached a similar conclusion in Eichenberger,
which considered whether a plaintiff had standing to
bring a complaint alleging a violation of the Video
Privacy Protection Act, which barred a videotape
provider from knowingly disclosing “personally
identifiable information concerning any consumer of
such provider.” 876 F.3d at 983 (quoting 18 U.S.C.
§ 2710(b)(1)). We concluded that the plaintiff had
Article III standing because every unlawful
disclosure of an individual’s personally identifiable
information and video-viewing history offended the
individual’s “substantive privacy interest in his or
her video-viewing history.” Id. Under the common
law, an intrusion into privacy rights by itself makes
a defendant subject to liability. See Restatement
(Second) of Torts § 652B. In other words, “privacy

22a
torts do not always require additional consequences
to be actionable.” Eichenberger, 876 F.3d at 983
(citing Restatement (Second) of Torts § 652B cmt. b);
see also Van Patten, 847 F.3d at 1043.
Given the nature of the alleged violation of BIPA,
Facebook’s reliance on Bassett v. ABM Parking
Services, Inc., 883 F.3d at 780, is misplaced.
Although the parking service in that case technically
violated the FCRA by failing to redact a credit card’s
expiration date, that violation did not cause a
disclosure of the consumer’s private financial
information, the substantive harm the FCRA was
designed to vindicate. Id. at 782–83. By contrast,
Facebook’s alleged collection, use, and storage of
plaintiffs’ face templates here is the very substantive
harm targeted by BIPA. Because we conclude that
BIPA protects the plaintiffs’ concrete privacy
interests and violations of the procedures in BIPA
actually harm or pose a material risk of harm to
those privacy interests, see Dutta, 895 F.3d at 1174,
the plaintiffs have alleged a concrete and
particularized harm, sufficient to confer Article III
standing.
III
We now turn to Facebook’s argument that the
district court abused its discretion by certifying the
class. We review a district court’s order granting
class certification for abuse of discretion, Sali v.
Corona Reg’l Med. Ctr., 909 F.3d 996, 1002 (9th Cir.
2018), as amended (Nov. 27, 2018), but give the
district court “noticeably more deference when
reviewing a grant of class certification than when

23a
reviewing a denial,” Just Film, Inc. v. Buono, 847
F.3d 1108, 1115 (9th Cir. 2017) (quotation omitted).
An error of law is “a per se abuse of discretion.” Sali,
909 F.3d at 1002 (quotation omitted). We review the
district court’s findings of fact for clear error, and its
legal conclusions de novo. See id.
First, Facebook urges that class certification is not
compatible with Rule 23(b)(3) of the Federal Rules of
Civil Procedure, which requires that “questions of
law or fact common to class members predominate
over any questions affecting only individual
members.” Fed. R. Civ. P. 23(b)(3). According to
Facebook, the Illinois extraterritoriality doctrine
precludes
the
district
court
from
finding
predominance.
The Illinois Supreme Court has held that it is a
“longstanding rule of construction in Illinois” that “a
‘statute is without extraterritorial effect unless a
clear intent in this respect appears from the express
provisions of the statute.’” Avery v. State Farm Mut.
Auto. Ins. Co., 835 N.E.2d 801, 852 (Ill. 2005)
(quoting Dur-Ite Co. v. Indus. Comm’n, 68 N.E.2d
717, 722 (Ill. 1946)). In the absence of such an intent,
an Illinois plaintiff may not maintain a cause of
action under a state statute for transactions that
took place outside of Illinois. Id. at 853. When a case
is “made up of components that occur in more than
one state,” plaintiffs may maintain an action only if
the events that are necessary elements of the
transaction occurred “primarily and substantially
within” Illinois. Id. at 853–54.

24a
Facebook insists that the Illinois legislature did not
intend for the BIPA to have extraterritorial effect,
and in the absence of such an intent, a court would
have to consider whether the relevant events at issue
took place inside or outside Illinois. Facebook argues
that its collection of biometric data and creation of a
face template occurred on its servers outside of
Illinois, and therefore the necessary elements of any
violation occurred extraterritorially. At best,
Facebook argues, each class member would have to
provide individualized proof that events in that class
member’s case occurred “primarily and substantially
within” Illinois; for instance, that the member was in
Illinois when the scanned photo was taken or
uploaded, when a facial recognition analysis was
performed, when the photo was tagged or given a tag
suggestion, or for similar events. Because the district
court would have to conduct countless mini-trials to
determine whether the events in each plaintiff’s case
occurred “primarily and substantially within”
Illinois, Facebook posits, common questions do not
predominate, and the district court erred in
certifying the class.
We disagree. The parties’ dispute regarding
extraterritoriality requires a decision as to where the
essential elements of a BIPA violation take place.
The statute does not clarify whether a private
entity’s collection, use, and storage of face templates
without first obtaining a release, or a private entity’s
failure to implement a compliant retention policy, is
deemed to occur where the person whose privacy
rights are impacted uses Facebook, where Facebook
scans photographs and stores the face templates, or

25a
in some other place or combination of places. Given
the General Assembly’s finding that “[m]ajor
national corporations have selected the City of
Chicago and other locations in this State as pilot
testing sites for new applications of biometricfacilitated financial transactions,” 740 Ill. Comp.
Stat. 14/5, it is reasonable to infer that the General
Assembly contemplated BIPA’s application to
individuals who are located in Illinois, even if some
relevant activities occur outside the state. These
threshold questions of BIPA’s applicability can be
decided on a class-wide basis. If the violation of BIPA
occurred when the plaintiffs used Facebook in
Illinois, then the relevant events occurred “primarily
and substantially” in Illinois, and there is no need to
have mini-trials on this issue. 7 If the violation of
BIPA occurred when Facebook’s servers created a
face template, the district court can determine
whether
Illinois’s
extraterritoriality
doctrine
precludes the application of BIPA. In either case,
predominance is not defeated. And of course, if
future decisions or circumstances lead to the
conclusion that extraterritoriality must be evaluated
on an individual basis, the district court can
decertify the class. See Officers for Justice v. Civil
Serv. Comm’n, 688 F.2d 615, 633 (9th Cir.1982) (“[A]
district court’s order respecting class status is not
final or irrevocable, but rather, it is inherently
tentative.”); see also Fed. R. Civ. P. 23(c)(1)(C) (“An
7

The district court found that this case involves only
plaintiffs who are located in Illinois, and the claims are based
on the application of Illinois law to the use of Facebook mainly
in Illinois.

26a
order that grants or denies class certification may be
altered or amended before final judgment.”).
Second, Facebook argues that the district court
abused its discretion by certifying the class because a
class action is not superior to individual actions.
“Rule 23(b)(3) requires that a class action be
‘superior to other available methods for fairly and
efficiently adjudicating the controversy,’ and it
specifically mandates that courts consider ‘the likely
difficulties in managing a class action.’” Briseno v.
ConAgra Foods, Inc., 844 F.3d 1121, 1127–28 (9th
Cir. 2017) (quoting Fed. R. Civ. P. 23(b)(3)(D)).
According to Facebook, the possibility of a large,
class-wide statutory damages award here defeats
superiority.
We disagree. The question “whether the potential
for enormous liability can justify a denial of class
certification depends on [legislative] intent.”
Bateman v. Am. Multi-Cinema, Inc., 623 F.3d 708,
722 (9th Cir. 2010). Where neither the statutory
language nor legislative history indicates that the
legislature intended to place a cap on statutory
damages, denying class certification on that basis
would “subvert [legislative] intent.” Id. at 722–23; cf.
Kline v. Coldwell, Banker & Co., 508 F.2d 226, 228,
235 (9th Cir. 1974) (holding that a potential liability
of $750 million under the Sherman Act would be
inconsistent with congressional intent in enacting
the statutory damages provision because treble
damages were “not remedial” but “punitive”). Here,
nothing in the text or legislative history of BIPA
indicates that a large statutory damages award
would be contrary to the intent of the General

27a
Assembly. Therefore, the district court did not abuse
its discretion in determining that a class action is
superior to individual actions in this case. See Fed.
R. Civ. P. 23(b)(3).8
AFFIRMED.

8

In its brief on appeal, Facebook also argued that only a
“person aggrieved” by a BIPA violation could bring a private
cause of action, and therefore the plaintiff must allege some
harm beyond a violation of the statute itself. Facebook claimed
that because each plaintiff must allege such individualized
harms, predominance under Rule 23 of the Federal Rules of
Civil
Procedure
was
defeated.
Because
Facebook’s
interpretation of BIPA was rejected by the Illinois Supreme
Court, see Rosenbach, 2019 IL 123186, at *4, which was decided
after the briefing in this case, this argument is foreclosed.

28a
APPENDIX B
_________
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
_________
NIMESH PATEL, ET AL.,
Plaintiffs,
v.
FACEBOOK INC.,
_________

Defendant.

Case No. 3:15-cv-03747-JD
_________
ORDER RE RENEWED MOTION TO DISMISS
FOR LACK OF SUBJECT MATTER
JURISDICTION
_________
Re: Dkt. No. 227
_________
Filed: 02/26/2018
_________
In this putative class action case under the Illinois
Biometric Information Privacy Act, 740 Ill. Comp.
Stat. 14/1 et seq. (“BlPA”), named plaintiffs allege
that
defendant
Facebook,
Inc.
(“Facebook”)
unlawfully collected and stored their biometric data
without prior notice or consent. Dkt. No. 40.
Facebook asks to dismiss the case under Federal
Rule of Civil Procedure 12(b)(1) and Spokeo, Inc. v.
Robins, 136 S. Ct. 1540 (2016) (Spokeo I) on the

29a
ground that plaintiffs have failed to allege a concrete
injury in fact. Dkt. No. 227. The motion is denied.
BACKGROUND
This consolidated action originated as three
separate cases originally filed in Illinois courts. Two
of the cases were filed in federal court, while a third
was filed in Illinois state court and removed to
federal court by Facebook under the Class Action
Fairness Act. Notice of Removal, Licata v. Facebook,
Inc., No. 1:15-cv-04022 (N.D. Ill. filed May 6, 2015)
(No. 1). The parties stipulated to transfer the cases
to this Court, where they were consolidated into a
single action. In re Facebook Biometric Info. Privacy
Litig., 185 F. Supp. 3d 1155, 1159 (2016). The
consolidated class action complaint, Dkt. No. 40, is
the operative complaint.
The consolidated complaint alleges that Facebook
“operates the largest social network in the world,
with over one billion active users.” Dkt. No. 40 ¶ 1.
The named plaintiffs, Nimesh Patel, Adam Pezen
and Carlo Licata, use Facebook “to, among other
things, upload and share photographs with friends
and relatives.” Id. ¶¶ 2, 7-9.
Plaintiffs’ claims arise out of Facebook’s “Tag
Suggestions” program launched in 2010. Id. ¶ 3. A
user “tags” other Facebook users and non-users by
identifying them in photographs uploaded to
Facebook. Id. ¶ 2. “Tag Suggestions” is intended to
encourage more tagging. Id. ¶ 3. It scans uploaded
photographs “and then identif[ies] faces appearing in
those photographs.” Id. If the program “recognizes
and identifies one of the faces appearing in [a]

30a
photograph, Facebook will suggest that individual’s
name or automatically tag them.” Id. In effect, the
program associates names with faces in photos and
prompts users to tag those people.
Tag Suggestions uses “state-of-the-art facial
recognition technology” to extract biometric
identifiers from photographs that users upload. Id.
¶¶ 4, 22. Facebook creates and stores digital
representations (known as “templates”) of people’s
faces based on the geometric relationship of facial
features unique to each individual, “like the distance
between [a person’s] eyes, nose and ears.” Id.¶ 23.
Plaintiffs allege that Facebook collected users’
biometric data secretly and without consent.
Specifically, they allege that the Tag Suggestions
program violated BIPA because Facebook did not:
“[1] properly inform plaintiffs or the class in writing
that their biometric identifiers (face geometry) were
being generated, collected or stored; [2] properly
inform plaintiffs or the class in writing of the specific
purpose and length of time for which their biometric
identifiers were being collected, stored, and used; [3]
provide a publicly available retention schedule and
guidelines for permanently destroying the biometric
identifiers of plaintiffs and the class (who do not optout of ‘Tag Suggestions’); and [4] receive a written
release from plaintiffs or the class to collect, capture,
or otherwise obtain their biometric identifiers.” Id.
¶ 5. Plaintiffs seek declaratory and injunctive relief
and statutory damages. Id. ¶ 6.

31a
DISCUSSION
I.

Legal Standards

“A Rule 12(b)(1) jurisdictional attack may be facial
or factual. In a facial attack, the challenger asserts
that the allegations contained in a complaint are
insufficient on their face to invoke federal
jurisdiction. By contrast, in a factual attack, the
challenger disputes the truth of the allegations that,
by themselves, would otherwise invoke federal
jurisdiction.” Safe Air for Everyone v. Meyer, 373
F.3d 1035, 1039 (9th Cir. 2004) (citations omitted).
In a facial jurisdictional challenge, the Court takes
all factual allegations in the complaint as true and
draws all reasonable inferences in plaintiffs’ favor.
Pride v. Correa, 719 F.3d 1130, 1133 (9th Cir. 2013).
In a factual challenge, the Court “may review
evidence beyond the complaint without converting
the motion to dismiss into a motion for summary
judgment” and “need not presume the truthfulness of
the plaintiff’s allegations.” Safe Air, 373 F.3d at 1039
(citations omitted). This discretion should be used
with caution so that it does not usurp a merits
determination. A “jurisdictional finding of genuinely
disputed facts is inappropriate when the
jurisdictional issue and substantive issues are so
intertwined that the question of jurisdiction is
dependent on the resolution of factual issues going to
the merits of an action.” Id. (internal quotations and
citations omitted).
II.

Article III Standing

Federal courts are courts of limited jurisdiction,
and the “case or controversy” requirement of Article

32a
III of the U.S. Constitution “limits federal courts’
subject matter jurisdiction by requiring, inter alia,
that plaintiffs have standing.” Chandler v. State
Farm Mut. Auto. Ins. Co., 598 F.3d 1115, 1121 (9th
Cir. 2010). As the Supreme Court recently reiterated,
a plaintiff must demonstrate standing to sue by
alleging the “irreducible constitutional minimum” of
(1) an “injury in fact” (2) that is “fairly traceable to
the challenged conduct of the defendants” and
(3) “likely to be redressed by a favorable judicial
decision.” Spokeo I, 136 S. Ct. at 1547. These
requirements may not be abrogated by Congress. Id.
at 1548. The specific element of injury in fact is
satisfied when the plaintiff has “suffered ‘an invasion
of a legally protected interest’ that is ‘concrete and
particularized’ and ‘actual or imminent, not
conjectural or hypothetical.’” Id. (quoting Lujan v.
Defenders of Wildlife, 504 U.S. 555, 560 (1992)).
Spokeo I did not announce new standing
requirements, as the citation to Lujan indicates.
Rather, it sharpened the focus on when an intangible
harm such as the violation of a statutory right is
sufficiently concrete to rise to the level of an injury in
fact. To determine whether an injury in fact has been
demonstrated in this “somewhat murky area,”
Robins v. Spokeo, Inc., 867 F.3d 1108, 1112 (9th Cir.
2017) (Spokeo II), the Supreme Court has held that
“both history and the judgment of Congress play
important roles.” Spokeo I, 136 S. Ct. at 1549.
History is instructive because an intangible harm is
likely to be concrete for standing purposes when it
bears “a close relationship to a harm that has
traditionally been regarded as providing a basis for a
lawsuit.” Id. Congress’s judgment is particularly

33a
important because it is “well positioned to identify
intangible harms” that are in fact concrete for Article
III purposes. Id. Congress has the power to create
statutory rights and causes of action “that will give
rise to a case or controversy where none existed
before.” Id. Consequently, an intangible harm such
as “the violation of a procedural right granted by
statute can be sufficient in some circumstances to
constitute injury in fact. In other words, a plaintiff in
such a case need not allege any additional harm
beyond the one Congress has identified.” Id.
While Spokeo I refers to Congress, neither side
disputes that state legislatures are equally wellpositioned to determine when an intangible harm is
a concrete injury. Our circuit said as much when it
held that “state law can create interests that support
standing in federal courts. If that were not so, there
would not be Article III standing in most diversity
cases, including run-of-the-mill contract and
property disputes. State statutes constitute state law
that can create such interests.” Cantrell v. City of
Long Beach, 241 F.3d 674, 684 (9th Cir. 2001). While
this conclusion pre-dates Spokeo I, nothing there
undercuts it. To be sure, state law cannot create
Article III standing where none exists under our
federal precedents. But there is no good reason why
the judgment of a state legislature should be treated
as less important than that of Congress in deciding
when the violation of a statutory grant in itself
amounts to a real and concrete injury.
Our circuit has adopted decisions from sister
circuits to hold that “an alleged procedural violation
[of a statute] can by itself manifest concrete injury
where Congress conferred the procedural right to

34a
protect a plaintiff’s concrete interests and where the
procedural violation presents ‘a real risk of harm’ to
that concrete interest.” Spokeo II, 867 F.3d at 1113
(internal citations omitted) (brackets in original).
The dispositive inquiries are whether: (1) the
statutory provisions at issue were established to
protect the plaintiff’s concrete interests; and (2) the
specifically alleged procedural violations “actually
harm or present a material risk of harm” to those
interests. Id.
III. Concrete Injury
The plain language of BIPA drives the standing
analysis in this case. BIPA expresses the judgments
of the Illinois legislature about the rights of Illinois
citizens with respect to the collection of personal
biometric data by corporations and businesses. In re
Facebook, 185 F. Supp. 3d at 1169 (citing 740 Ill.
Comp. Stat. 14/5(b)). Specifically, BIPA manifests
the Illinois legislature’s conclusions that:
(1) Biometrics are uniquely sensitive identifiers.
“Biometrics are unlike other unique identifiers . . .
[and] are biologically unique to the individual;
therefore, once compromised, the individual has no
recourse, is at heightened risk for identity theft, and
is likely to withdraw from biometric-facilitated
transactions.” 740 Ill. Comp. Stat. 14/5(c).
(2) Biometric technology is a new frontier subject
to
unpredictable
developments.
“The
full
ramifications of biometric technology are not fully
known.” Id. at 14/5(f).
(3) People are apprehensive of transactions
involving their biometrics. The “overwhelming

35a
majority of members of the public are weary of the
use of biometrics when such information is tied to
finances and other personal information” and are
“deterred from partaking in biometric identifierfacilitated transactions.” Id. at 14/5(d)-(e).
(4) Regulation of biometric collection, use, and
storage serves the public interest. The “public
welfare, security and safety will be served by
regulating the collection, use, safeguarding,
handling, storage, retention, and destruction of
biometric identifiers and information.” Id. at 14/5(g).
To address these concerns and protect the rights of
its residents to control their biometric information,
the Illinois legislature enacted several measures.
Section 15(a) of BIPA requires private entities
possessing biometric data to publish written policies
on data retention and destruction. Section 15(b)
provides that biometric data may not be obtained
without (1) written notice that biometric data is at
issue, (2) written notice of why and for how long the
data is being collected and stored, and (3) written
consent from the subject. Sections 15(c) and (d) limit
the sale, trade, and disclosure of biometric data, and
Section 15(e) sets security standards for storing data.
Plaintiffs have sued under Sections 15(a) and (b) for
lack of notice and consent.
These provisions, along with the plain text of BIPA
as a whole, leave little question that the Illinois
legislature codified a right of privacy in personal
biometric information. There is equally little doubt
about the legislature’s judgment that a violation of
BIPA’s procedures would cause actual and concrete
harm. BIPA vested in Illinois residents the right to

36a
control their biometric information by requiring
notice before collection and giving residents the
power to say no by withholding consent. As the
Illinois
legislature
found,
these
procedural
protections are particularly crucial in our digital
world because technology now permits the wholesale
collection and storage of an individual’s unique
biometric identifiers -- identifiers that cannot be
changed if compromised or misused. When an online
service simply disregards the Illinois procedures, as
Facebook is alleged to have done, the right of the
individual to maintain her biometric privacy
vanishes into thin air. The precise harm the Illinois
legislature sought to prevent is then realized.
Consequently, the abrogation of the procedural
rights mandated by BIPA necessarily amounts to a
concrete injury. This injury is worlds away from the
trivial harm of a mishandled zip code or credit card
receipt. A violation of the BIPA notice and consent
procedures infringes the very privacy rights the
Illinois legislature sought to protect by enacting
BIPA. That is quintessentially an intangible harm
that constitutes a concrete injury in fact. See Spokeo
II, 867 F.3d at 1113 (and cases cited therein).
The Illinois legislature’s considered judgments in
enacting BIPA are also well-grounded in a long
tradition of claims actionable in privacy law. The
“‘common law and the literal understanding of
privacy encompass the individual’s control of
information concerning his or her person.’”
Eichenberger v. ESPN, Inc., 876 F.3d 979, 983 (9th
Cir. 2017) (quoting U.S. Dep’t of Justice v. Reporters
Comm. for Freedom of the Press, 489 U.S. 749, 763
(1989)). “Violations of the right to privacy have long

37a
been actionable at common law.” Id. “Actions to
remedy defendants’ invasions of privacy, intrusion
upon seclusion, and nuisance have long been heard
by American courts, and the right of privacy is
recognized by most states.” Van Patten v. Vertical
Fitness Grp., LLC, 847 F.3d 1037, 1043 (9th Cir.
2017) (citing Restatement (Second) of Torts § 652(B)
(Am. Law Inst. 1977)).
Facebook insists that the collection of biometric
information without notice or consent can never
support Article III standing without “real-world
harms” such as adverse employment impacts or even
just “anxiety.” See, e.g., Dkt. No. 227 at 1, and 5-7
(emphasis in original). That contention exceeds the
law. The Supreme Court has expressly recognized
that the violation of statutory procedural rights in
itself can be sufficient, without any additional harm
alleged. Spokeo I, 136 S.Ct. at 1549. Our circuit has
also found that “privacy torts do not always require
additional
consequences
to
be
actionable.”
Eichenberger, 876 F.3d at 983. Intrusion on privacy
alone can be a concrete injury. Id.; see also Mount v.
PulsePoint, Inc., 684 F. App’x 32, 34 (2d Cir. 2017),
as amended (May 3, 2017) (unauthorized access to
and monitoring of web-browsing is concrete injury);
In re Facebook Internet Tracking Litig., 263 F. Supp.
3d 836, 843 (N.D. Cal. 2017) (tracking users’ webbrowsing history is concrete injury). Our circuit has
specifically affirmed findings of concrete injury, and
standing to sue, when plaintiffs were deprived of
procedures that protected privacy interests without
any attendant embarrassment, job loss, stress or
other additional injury. See, e.g., Syed v. M-I, LLC,
853 F.3d 492, 499 (9th Cir. 2017) (loss of statutory

38a
right to authorize credit check by prospective
employer); Eichenberger, 876 F.3d at 983-84 (loss of
control over personal information under Video
Privacy Protection Act).
The cases Facebook relies upon to contest standing
are readily distinguishable. In Gubala v. Time
Warner Cable, Inc., 846 F.3d 909 (7th Cir. 2017), for
example, the plaintiff sued Time Warner for
retaining his social security number and other
personal information in violation of the Cable
Communications Policy Act. But that is of scant
relevance here because BIPA expressly recognizes
that social security numbers do not implicate the
kinds of privacy concerns that biometric identifiers
do. Biometric identifiers, as the Illinois legislature
found, are “unlike other unique identifiers” such as
“social security numbers,” because those “when
compromised, can be changed.” 740 Ill. Comp. Stat.
14/5(c).
In McCollough v. Smarte Carte, Inc., No. 16 C
03777, 2016 WL 4077108 (N.D. Ill. Aug. 1, 2016), a
case brought under BIPA, locker rental customers in
Illinois had to complete their rentals by “plac[ing]
their finger on a fingerprint scanner, which is then
displayed on the screen; finally, the screen displays
the locker number and unlocks the locker.” Id. at *1.
The court found that “a customer would understand
that Smarte Carte collects and retains their
fingerprint data for at least the duration of the
rental. The system would not work otherwise.” Id.
n.1.
So too for Vigil v. Take-Two Interactive Software,
Inc., 235 F. Supp. 3d 499, 513 (S.D.N.Y. 2017),

39a
another decision under BIPA that the Second Circuit
affirmed in part, vacated in part, and remanded in
Santana v. Take-Two Interactive Software, Inc., __
Fed. Appx. __, No. 17-303, 2017 WL 5592589 (2d Cir.
Nov. 21, 2017). In that case, the plaintiffs bought a
basketball videogame that allowed players to create
personalized “avatars” using their own faces. 2017
WL 5592589 at *1. To make an avatar, players had
to scan their faces for approximately 15 minutes by
standing “within 6 to 12 inches of the camera” and
slowly moving “their heads 30 degrees to the left and
to the right.” Id. Critically, before a player could
create an avatar, she was required to consent by
pressing “continue” after reading a notice stating
that the “face scan” might be recorded. Id. In these
circumstances, the district court found that the
plaintiffs clearly knew that “Take-Two had to collect
data based upon their faces in order to create the
personalized basketball avatars, and that a
derivative of the data would be stored in the
resulting digital faces of those avatars so long as
those avatars existed.” Vigil, 235 F. Supp. 3d at 515.
The Second Circuit had little troubling concluding
that Take-Two had satisfied BIPA’s notice and
consent provisions, and that the plaintiffs could not
allege a material risk of harm to a concrete interest
protected by the statute. 2017 WL 5592589 at *3.
While McCullough and Vigil involved BIPA, they
turned on circumstances that are a far cry from the
ones alleged here. In those cases, the plaintiffs
indisputably knew that their biometric data would be
collected before they accepted the services offered by
the businesses involved. Vigil had the specific fact of
prior written notice and click-through consent. In

40a
each case, the plaintiffs had sufficient notice to make
a meaningful decision about whether to permit the
data collection. That factual difference makes these
cases of little value in addressing the allegations in
the consolidated complaint that Facebook afforded
plaintiffs no notice and no opportunity to say no.
Facebook’s reliance on Spokeo II is also misplaced.
It highlights a comment in a footnote that a plaintiff
might have a hard time showing standing under
FCRA provisions “which do not turn on any alleged
reporting inaccuracy.” Spokeo II, 867 F.3d at 1116
n.2 (emphasis in original). This point appears to be a
further elaboration on Facebook’s “real harm”
contention and is unpersuasive for the same reasons.
But even taken on its own, it is again of little
relevance because BIPA, unlike FCRA, targets the
unauthorized collection of information in the first
instance. The two statutes are sufficiently distinct so
that Spokeo II’s FCRA concerns simply do not apply
here. See Eichenberger, 876 F.3d at 983-84 (Spokeo I
and II distinguishable because Video Privacy
Protection Act, unlike FCRA, identifies a substantive
right to privacy). In addition, as the footnote itself
suggests, the comment is likely dicta because the
plaintiff in Spokeo II did not allege a claim
independent of a reporting inaccuracy. Spokeo II, 867
F.3d at 1116 n.2.
In addition to its legal arguments, Facebook has
submitted its user agreement and data policy,
deposition excerpts and other extrinsic evidence to
contend that BIPA’s notice and consent requirements
were actually satisfied. See, e.g., Dkt. No. 227 at 1011. While that may or may not prove true in the end,
the salient point for present purposes is that notice

41a
and consent are inextricably intertwined with the
merits of plaintiffs’ claims. The parties contest the
facts surrounding those issues, in contrast to the
largely undisputed material facts in McCullough and
Vigil. These dispositive disputes on the merits
should be decided on summary judgment or at trial,
and not in the Rule 12(b)(1) jurisdictional context.
Safe Air, 373 F.3d at 1039.
CONCLUSION
Facebook’s motion to dismiss for lack of subject
matter jurisdiction is DENIED.
IT IS SO ORDERED.
Dated: February 26, 2018
/s/ James Donato
JAMES DONATO
United States District Judge

42a
APPENDIX C
_________
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
_________
IN RE FACEBOOK BIOMETRIC INFORMATION
PRIVACY LITIGATION
THIS DOCUMENT RELATES TO: ALL ACTIONS
_________
Case No. 3:15-cv-03747-JD
_________
ORDER RE CLASS CERTIFICATION
Re: Dkt. No. 255
_________
Filed: 04/16/2018
_________
In this privacy action against defendant Facebook,
Inc. (“Facebook”), named plaintiffs Nimesh Patel,
Adam Pezen, and Carlo Licata move for class
certification. Dkt. No. 255. Plaintiffs’ claims are
sufficiently cohesive to allow for a fair and efficient
resolution on a class basis. Consequently, the case
will proceed with a class consisting of Facebook users
located in Illinois for whom Facebook created and
stored a face template after June 7, 2011.
BACKGROUND
The material facts of this case are reported in a
number of prior orders. See, e.g., Patel v. Facebook
Inc., __ F. Supp. 3d. __, No. 3:15-cv-03747-JD, 2018

43a
WL 1050154, at *1 (N.D. Cal. Feb. 26, 2018) [“Spokeo
order”]. Briefly summarized, plaintiffs are Facebook
users who challenge its “Tag Suggestions” program,
which scans for and identifies people in uploaded
photographs to promote user tagging. Plaintiffs
allege that Facebook collects and stores their
biometric data without prior notice or consent in
violation of their privacy rights and Sections 15(a)
and 15(b) of the Illinois Biometric Information
Privacy Act, 740 Ill. Comp. Stat. 14/1 et seq.
(“BIPA”). Dkt. No. 40.
The salient facts for class certification are
undisputed. Facebook launched Tag Suggestions on
June 7, 2011. Dkt. No. 255 at 2. In broad strokes,
Tag Suggestions is powered by a four-step facial
recognition process. Initially, the software tries to
detect faces (the “detection” step) and standardizes
any detected faces for qualities like orientation and
size (the “alignment step”). Dkt. No. 256-8 ¶¶ 13-17.
For each face that is detected and aligned, Facebook
computes a “face signature,” which is a “string of
numbers that represents a particular image of a
face” (the “representation” step). Id. ¶ 18. Face
signatures are then run through a stored database of
user “face templates” to look for matches (the
“classification” step). Id. ¶¶ 21-23. A face template is
“a string of numbers that represents a boundary”
between the face signatures of a given Facebook user
and the face signatures of others, and is calculated
based on that user’s photographs. Id. If a computed
face signature falls within the boundary described by
a user’s face template, Facebook suggests tagging the
user. See Dkt. No. 284-20 at 37. Facebook represents,
with no challenge from plaintiffs, that face

44a
signatures are not stored. Dkt. No. 256-8 ¶ 20. Only
face templates are kept by Facebook.
Facebook’s facial recognition technology is reliable
but not foolproof. Facebook estimates that 90% of
faces appearing in photographs are successfully
detected, and of those detected faces, 85% are
successfully aligned. Dkt. No. 284-9 ¶¶ 5-6. That
means approximately 76% of faces appearing in
photographs reach the representation step and have
face signatures computed. Facebook states that in
2014, it was able to match around 67% of detected
faces with users, which somewhat understates
current matches because the rate has risen as the
technology has matured. Id. ¶¶ 8-9.
Plaintiffs seek certification under Federal Rule of
Civil Procedure 23(b)(3) and propose a class of all
“Facebook users living in Illinois whose face
appeared in a photo uploaded to Facebook from
Illinois between June 7, 2011, and the final
disposition of this action.” Dkt. No. 255 at 5.
Plaintiffs also propose an alternative class of all
“people living in Illinois for whom Facebook has a
stored ‘face template’ that was created between June
7, 2011, and final disposition of this action.” Id.
LEGAL STANDARDS
As the parties seeking certification, plaintiffs bear
the burden of showing that the requirements of
Federal Rule of Civil Procedure 23 are met. Mazza v.
Am. Honda Motor Co., 666 F.3d 581, 588 (9th Cir.
2012). The proposed class action must satisfy all four
requirements of Rule 23(a), and at least one of the
sub-sections of Rule 23(b). Comcast Corp. v. Behrend,

45a
569 U.S. 27, 33 (2013); Zinser v. Accufix Research
Inst., Inc., 253 F.3d 1180, 1186 (9th Cir. 2001),
amended by 273 F.3d 1266 (9th Cir. 2001).
Rule 23(a) imposes four prerequisites. The class
must be “so numerous that joinder of all members is
impracticable” (numerosity). There must be
“questions of law or fact common to the class”
(commonality). The claims or defenses of the named
plaintiffs must be “typical of the claims or defenses of
the class” (typicality). And the named parties must
show that they “will fairly and adequately protect
the interests of the class” (adequacy). Fed. R. Civ. P.
23(a)(1)-(4).
To obtain a Rule 23(b)(3) class, plaintiffs must also
must show that “questions of law or fact common to
class members predominate over any questions
affecting only individual members” (predominance)
and that a class action is “superior to other available
methods for fairly and efficiently adjudicating the
controversy” (superiority). Fed. R. Civ. P. 23(b)(3).
The Court’s “class-certification analysis must be
rigorous and may entail some overlap with the
merits of the plaintiff’s underlying claim.” Amgen
Inc. v. Connecticut Ret. Plans & Trust Funds, 568
U.S. 455, 465-66 (2013) (internal quotations and
citations omitted). “That is so because the class
determination generally involves considerations that
are enmeshed in the factual and legal issues
comprising the plaintiff’s cause of action.” Comcast,
569 U.S. at 33-34 (internal quotations and citations
omitted). These principles apply to the Rule 23(a)
and 23(b) analysis alike. Id. at 34.

46a
The rigorous analysis, however, has its limits.
“Rule 23 grants courts no license to engage in freeranging merits inquiries at the certification stage.
Merits questions may be considered to the extent -but only to the extent -- that they are relevant to
determining whether the Rule 23 prerequisites for
class certification are satisfied.” Amgen, 586 U.S. at
466. The class certification procedure is decidedly not
an alternative form of summary judgment or an
occasion to hold a mini-trial on the merits. Alcantar
v. Hobart Service, 800 F.3d 1047, 1053 (9th Cir.
2015). The goal under Rule 23 is “to select the
metho[d] best suited to adjudication of the
controversy fairly and efficiently.” Amgen, 568 U.S.
at 460 (internal quotations omitted) (modification in
original). That means deciding whether efficiency
and the interests of justice are best served by having
the named plaintiffs go forward to the merits as
individuals or on behalf of a class as “an exception to
the usual rule that litigation is conducted by and on
behalf of the individual named parties only.” WalMart Stores, Inc. v. Dukes, 564 U.S. 338, 348 (2011)
(quoting Califano v. Yamasaki, 442 U.S. 682, 700701 (1979)). See generally Brickman v. Fitbit, Inc.,
No. 3:15-CV-02077-JD, 2017 WL 5569827, at *2-3
(N.D. Cal. Nov. 20, 2017).
The decision of whether to certify a class is
entrusted to the sound discretion of the district
court. Zinser, 253 F.3d at 1186.

47a
DISCUSSION
I.

The Initial Proposed Class

Plaintiffs initially propose a class consisting of all
Illinois Facebook users appearing in a photograph
uploaded to Facebook. This broad definition is not
viable because it poses insurmountable problems
with superiority and manageability, commonality,
predominance, and is not “reasonably co-extensive
with Plaintiffs’ chosen theory of liability.” Torres v.
Mercer Canyons Inc., 835 F.3d 1125, 1136-37 (9th
Cir. 2016).
Simply appearing in an uploaded photograph does
not necessarily mean that a face signature or
template was collected or stored, or that any
biometric data was harvested. As plaintiffs
acknowledge, Facebook “locates certain landmarks
on the face and uses that data to create a threedimensional map of the face” only after the initial
steps of detection and alignment are successfully
completed. Dkt. No. 255 at 3. Unique physical
characteristics are not involved in the detection step,
which is about locating all faces rather than a
specific face. The detection and alignment steps fail
for approximately 24% of faces appearing in
photographs. See Dkt. No. 284-9 ¶¶ 5-6. The
uncertainty generated by this match failure rate is
compounded by evidence in the record, which
plaintiffs do not contest, that Facebook cannot
reliably determine whether a face signature was ever
computed from a particular photograph, id. ¶¶ 11-12,
and that face signatures are not stored, Dkt. No. 2568 ¶ 20. The record also shows that at times during
the proposed class period, the software did not

48a
consistently compute face signatures from a given
photograph. See Dkt. No. 284-9 ¶ 12.
These uncontested facts establish that uploading a
photo did not necessarily result in the collection of
biometric data. Consequently, a class defined by
uploaded photographs is too amorphous and
potentially over-inclusive to be certified. See Torres,
835 F.3d at 1139; Lozano v. AT & T Wireless Servs.,
Inc., 504 F.3d 718, 730 (9th Cir. 2007). Plaintiffs
suggest that a vigorous claims process can fix these
problems, but that only pushes them down the road
to a later stage. Facebook will have no greater ability
to resolve these uncertainties at the verification
stage than at this definitional one. Plaintiffs’
citations to claims procedure cases are inapposite for
this reason. See, e.g., In re Cmty. Bank of N. Virginia
Mortg. Lending Practices Litig., 795 F.3d 380, 397
(3d Cir. 2015) (defendant already possessed all
relevant records and identification method was
reliable and repeatable).
Plaintiffs also suggest that they can obtain
certification on the theory that users with multiple
photos posted on Facebook are likely to have had at
least one processed in the representation or
classification steps, where biometric data is collected.
Dkt. No. 292 at 7. That too is inherently imprecise,
and plaintiffs do not offer any statistical or other
methods that might translate this presumed
likelihood into a reasonably certain class definition.
II.

The Certified Class

Plaintiffs’ alternative proposal is tied to face
templates, and with a minor modification it provides

49a
a sound basis for certification. A class comprised of
Facebook users located in Illinois for whom Facebook
created and stored a face template after June 7,
2011, satisfies Rule 23’s requirements and
neutralizes most of Facebook’s objections, which go
mainly to problems caused by the use of face
signatures to define the class. This definition
modestly refines plaintiffs’ alternative class proposal,
and will be used for the remaining Rule 23 analysis.
See Armstrong v. Davis, 275 F.3d 849, 871 n.28 (9th
Cir. 2001) (“district court may redefine the class”)
(citing Penk v. Oregon State Bd. of Higher Educ., 816
F.2d 458, 467 (9th Cir. 1987)), abrogated on other
grounds by Johnson v. California, 543 U.S. 499
(2005).
A. Numerosity, Adequacy, and Typicality
The numerosity, adequacy, and typicality
requirements in Rule 23(a) are readily satisfied for a
template-based class of Illinois users. Plaintiffs
reasonably estimate that millions of Illinois residents
are Facebook users, many of whom have been tagged
in enough photographs to have face templates. Dkt.
No. 255 at 6. Plaintiffs’ arguments are uncontested
by Facebook, and numerosity is established.
Adequacy is also not an issue. Neither named
plaintiffs nor their counsel have an apparent conflict
of interest with other class members, and the hardfought proceedings in this case amply establish that
they will “prosecute the action vigorously on behalf of
the class.” Hanlon v. Chrysler Corp., 150 F.3d 1011,
1020 (9th Cir. 1998). Facebook says adequacy cannot
be found because the named plaintiffs “know almost
nothing” about their case or claims, but that goes too

50a
far. Dkt. No. 285 at 24. The deposition testimony by
the named plaintiffs shows a perfectly adequate
understanding of the case, and it clearly manifests
their concerns about Facebook’s treatment of
personal biometric data. See, e.g., Dkt. Nos. 255-5;
255-6; 284-23; 284-24; 284-25. This is not a situation
where the named plaintiffs “are startlingly
unfamiliar with the case.” Dufour v. Be LLC, 291
F.R.D. 413, 419 (N.D. Cal. 2013) (internal quotations
omitted). In any event, objections to adequacy based
on a named representative’s alleged ignorance are
disfavored. See Surowitz v. Hilton Hotels Corp., 383
U.S. 363, 370-74 (1966). Even if the named plaintiffs
have relied heavily on the advice of attorneys and
others, it is hardly a badge of inadequacy to seek
help from those with relevant expertise, particularly
in a complex case like this one. Baffa v. Donaldson,
Lufkin & Jenrette Sec. Corp., 222 F.3d 52, 62 (2d Cir.
2000).
There is no serious doubt that typicality is
satisfied, too. Named plaintiffs are Illinois Facebook
users with face templates suing under Illinois law on
behalf of fellow users in Illinois. That is enough to
“assure that the interest of the named representative
aligns with the interests of the class.” Hanon v.
Dataproducts Corp., 976 F.2d 497, 508 (9th Cir.
1992). Typicality may be a bar to certification if other
members would suffer because the named plaintiffs
would be “preoccupied with defenses unique to”
them. Just Film, Inc. v. Buono, 847 F.3d 1108, 1116
(9th Cir. 2017) (quoting Hanon, 976 F.2d at 508).
That is not the situation here. Facebook has not
shown that named plaintiffs would be preoccupied

51a
with unique defenses, or are in any way atypical
with respect to the overall class.
B. Commonality and Predominance
The main thrust of Facebook’s non-technical
objections to certification go to the somewhat
overlapping factors of commonality under Rule
23(a)(2) and predominance under Rule 23(b)(3).
These inquiries go to the heart of whether
adjudication of the claims on a class basis would be
fair, efficient and superior to individual prosecution.
The commonality requirement is satisfied when
“there are questions of law or fact common to the
class.” Fed. R. Civ. P. 23(a)(2). “Because any
competently crafted class complaint literally raises
common questions,” the Court’s task is to look for a
common contention “capable of classwide resolution - which means that determination of its truth or
falsity will resolve an issue that is central to the
validity of each one of the claims in one stroke.”
Alcantar, 800 F.3d at 1052 (internal quotations and
citations omitted). What matters is the “capacity of a
classwide proceeding to generate common answers
apt to drive the resolution of the litigation.” WalMart, 564 U.S. at 350 (internal quotations omitted)
(emphasis in original).
Rule 23(a)(2) does not demand total uniformity
across a class. “All questions of fact and law need not
be common to satisfy the rule. The existence of
shared legal issues with divergent factual predicates
is sufficient, as is a common core of salient facts
coupled with disparate legal remedies within the
class.” Hanlon, 150 F.3d at 1019. Rule 23(a)(2)

52a
imposes a “‘rigorous’ commonality standard.” Levya
v. Medline Indus. Inc., 716 F.3d 510, 512 (9th Cir.
2013).
Rule 23(b)(3) requires that common questions of
law or fact predominate over individual ones. The
predominance inquiry asks whether “common
questions present a significant aspect of the case and
[if] they can be resolved for all members of the class
in a single adjudication.” Hanlon, 150 F.3d at 1022
(internal quotations omitted); see also Tyson Foods v.
Bouaphakeo, __ U.S. __, 136 S.Ct. 1036, 1045 (2016).
Each element of a claim need not be susceptible to
classwide proof, Amgen, 568 U.S. at 468-69, and the
“important questions apt to drive the resolution of
the litigation are given more weight in the
predominance analysis over individualized questions
which are of considerably less significance to the
claims of the class.” Torres, 835 F.3d at 1134. Rule
23(b)(3) permits certification when “one or more of
the central issues in the action are common to the
class and can be said to predominate, . . . even
though other important matters will have to be tried
separately, such as damages or some affirmative
defenses peculiar to some individual class members.”
Tyson, 136 S. Ct. at 1045 (internal quotations
omitted).
As the Court has discussed in other decisions, the
line separating the commonality inquiry under Rule
23(a)(2) and the predominance assessment under
Rule 23(b)(3) can be elusive. See Ochoa v.
McDonald’s Corp., Case No. 14-cv-02098 JD, 2016
WL 3648550, at *5-6 (N.D. Cal. July 7, 2016). WalMart emphasized the commonality inquiry, but the
Supreme Court has also advised that “[i]f anything,

53a
Rule 23(b)(3)’s predominance criterion is even more
demanding than Rule 23(a).” Comcast, 569 U.S. at
34. Whatever the precise demarcation might be
between the two inquiries, it is clear that
commonality alone will not fulfill Rule 23(b)(3), and
that the main concern under subsection (b)(3) “is the
balance between individual and common issues.” In
re Hyundai and Kia Fuel Economy Litigation, 881
F.3d 679, 691 (9th Cir. 2018) (internal quotations
omitted); see also Tyson, 136 S.Ct. at 1045 (purpose
of the Rule 23(b)(3) inquiry is to determine whether
the proposed class is “sufficiently cohesive to warrant
adjudication by representation”) (quoting Amchem
Products, Inc. v. Windsor, 521 U.S. 591, 623 (1997)).
As
a
practical
matter,
commonality
and
predominance can be assessed in tandem, with a
careful eye toward ensuring that the specific
requirements of each are fully satisfied. See, e.g.,
Just Film, 847 F.3d at 1120-21.
As an initial matter, there is no doubt that a
template-based class poses common legal and factual
questions, namely: did Facebook’s facial recognition
technology
harvest
biometric
identifiers
as
contemplated under BIPA, and if so, did Facebook
give users prior notice of these practices and obtain
their consent? Facebook agrees that these questions
reach the entire class, Dkt. No. 285 at 9, but
challenges
whether
common
answers
will
predominate. Specifically, Facebook contends that
three issues can be resolved only by individualized
evidence of: (1) whether a class member is
“aggrieved” as that word is used in BIPA, which
grants a private right of action only to “persons
aggrieved” under it; (2) whether a class member’s

54a
claims fall within BIPA’s territorial scope; and (3)
whether a class member was depicted in photographs
derived from “paper photos . . . converted to digital
form before upload.” Id.
Facebook puts greatest emphasis on its argument
about the meaning of “aggrieved.” It relies almost
exclusively on Rosenbach v. Six Flags Entertainment
Corporation, 2017 IL App (2d) 170317 (Ill. App. Ct.
2017), a currently unpublished opinion by an
intermediate court of appeals in Illinois. The BIPA
claim in Rosenbach arose out of the practice by the
defendant amusement parks of fingerprinting season
pass holders so that thumb scans could speed up
entry into the park. The parks collected a minor’s
thumbprint when he purchased a pass, and his
mother subsequently objected under BIPA that the
parks had not provided prior notice or obtained
consent. She sued on those grounds. The trial court
initially denied defendants’ motion to dismiss but
certified questions about the meaning of “aggrieved”
to the appellate court. Rosenbach is the intermediate
court’s response to the certified questions.
As a threshold matter, Rosenbach does not bear the
heavy weight Facebook seeks to place on it. Facebook
heatedly insists that Rosenbach interpreted
“aggrieved” to require injury or harm “beyond the
alleged statutory violation.” Dkt. No. 285 at 1
(emphasis in original). But the opinion is far less
pertinent or definitive than Facebook contends, and
a fair reading suggests that the Rosenbach court
would have reached the opposite conclusion had the
allegations in this case been before it. Rosenbach
states on several occasions that the plaintiff in that
case -- the mother of the minor fingerprinted by the

55a
amusement park defendants -- did not allege that
she or her son “suffered any actual injury.” See, e.g.,
Rosenbach, 2017 IL App (2d) 170317, ¶ 10 (“Plaintiff
alleged not that she or Alexander suffered any actual
injury, but that, had she known of defendants’
conduct, ‘she never would have purchased a season
pass for her son.”). Instead, “the only injury alleged”
by the plaintiff was “a violation of the notice and
consent requirements of section 15(b) of the Act,” and
her argument was that “a mere technical violation of
the Act is sufficient to render a party ‘aggrieved.’” Id.
¶ 18. Critically, the Rosenbach court expressly
observed that “Plaintiff did not allege in her
complaint any harm or injury to a privacy right,” id.
¶ 20 n.1, and underscored that the “injury or adverse
effect need not be pecuniary” to qualify a person as
“aggrieved” under BIPA. Id. ¶ 28. Facebook glosses
over these essential parts of Rosenbach to say it
demands some undefined “actual” harm beyond
injury to a privacy right, but the better reading is
Rosenbach would find that injury to a privacy right
is enough to make a person aggrieved under BIPA.
As the Court has already found, there is no question
that plaintiffs here have sufficiently alleged that
intangible injury. See, e.g., Dkt. No. 40 ¶ 17
(Facebook “continues to violate millions of Illinois
residents’ legal privacy rights”); id. ¶ 31.
This is enough to overcome Facebook’s objections
based on its interpretation of Rosenbach. To the
extent Rosenbach might be read differently, the
Court would part company with it. To be sure,
principles of comity and federalism counsel that
federal courts should not lightly disregard state court
interpretations of state law. But as an intermediate

56a
court opinion, Rosenbach is a non-binding data point
for ascertaining Illinois law, and if “other persuasive
data” convinces the Court that the Illinois Supreme
Court would decide otherwise, the Court need not
follow it. Am. Tower Corp. v. City of San Diego, 763
F.3d 1035, 1047 (9th Cir. 2014); Klein v. United
States, 537 F.3d 1027, 1032 (9th Cir. 2008).
A considerable amount of “persuasive data” would
indeed call into serious doubt an intermediate court
decision holding that BIPA requires “actual” injury
beyond an invasion of privacy. First and foremost is
the plain language of BIPA itself. As the Illinois
Supreme Court has held, the “cardinal rule in
interpreting a statute is to give effect to the intent of
the legislature.” People v. Fort, 88 N.E.3d 718, 723
(Ill. 2017) (internal citation omitted). The
legislature’s intent is best determined from the
language of the statute itself, which should be read
as a whole to determine “its nature, its object and the
consequences that would result from construing it
one way or the other.” Id. at 723-724 (internal
quotations omitted); see also FDA v. Brown &
Williamson Tobacco Corp., 529 U.S. 120, 132-33
(2000)
(“fundamental
canon
of
statutory
construction” to define words in reference to
“context” and “overall statutory scheme”) (quoting
Davis v. Michigan Dept. of Treasury, 489 U.S. 803,
809 (1989)).
These well-established canons of interpretation are
crucial here, because a plain of reading of BIPA
“leave[s] little question that the Illinois legislature
codified a right of privacy in personal biometric
information” rooted in “a long tradition of claims
actionable in privacy law” and extending to control

57a
over one’s data, independent of disclosure or misuse
risks. Patel, 2018 WL 1050154, at *4. This intent
cannot be squared with a construction of “aggrieved”
that requires some other “actual” injury, whatever
that might be, particularly when deprivation of
BIPA’s notice and consent requirements amounts to
the “precise harm the Illinois legislature sought to
prevent.” Id. Such a holding would be all the more
questionable because the Illinois legislature clearly
knows how to condition a cause of action on actual
injury simply by saying so in the statute. See, e.g.,
815 Ill. Comp. Stat. Ann. 505/10a (Illinois Consumer
Fraud and Deceptive Business Practices Act) (private
right of action limited to person who suffers “actual”
damage). The legislature did not choose to say so in
BIPA, and that choice must be given weight.
This statutory analysis would be enough on its own
to turn away Facebook’s characterization of
Rosenbach. See Am. Tower, 763 F.3d at 1047 (text of
statute alone is persuasive data). Express precedent
from the Illinois Supreme Court is another point of
persuasive data against it. The Illinois high court
has determined that “aggrieved” parties under an
Illinois statute are those with a “direct, immediate
and substantial interest rather than a speculative,
theoretical, inconsequential or remote interest.” Am.
Sur. Co. v. Jones, 384 Ill. 222, 230 (Ill. 1943). The
Illinois Supreme Court made this determination in
the context of an insurance statute, but did not cabin
its holding to that statute or the facts before it. Jones
stands for the proposition that, under Illinois law, an
individual is “aggrieved” when “a legal right is
invaded by the act complained of.” Id. at 229-230
(quoting Glos v. People, 259 Ill. 332, 340 (Ill. 1913)).

58a
Tellingly, Rosenbach omits any discussion of Jones,
and Facebook also does not address it in its papers.
That is a concern because Jones is good law in
Illinois and is actively cited today by other federal
courts and Illinois state courts, significantly in the
BIPA context. See, e.g., Vigil v. Take-Two Interactive
Software, Inc., 235 F. Supp. 3d 499, 520 (S.D.N.Y.
2017) (citing Jones in interpreting BIPA). A
convincing construction of “aggrieved” in BIPA would
need to account for Jones, and not rely entirely, for
example, on decisions from courts outside Illinois.
See, e.g., Rosenbach, 2017 IL App (2d) 170317, ¶ 22
(citing Wisconsin decision).
An analysis of Jones is particularly important
because a good argument can be made that
Facebook’s reading of Rosenbach is not consistent
with it. Jones holds that a party is aggrieved by an
act that directly or immediately affects her legal
interest. In contrast, Facebook portrays Rosenbach
as saying that the word “aggrieved” requires a
plaintiff to affirmatively plead some additional
“actual injury” as an element of her claim, whatever
that undefined extra harm might be. Dkt. No. 285 at
10. This is a significantly more limited construction
of “aggrieved” than afforded by Jones, and the
grounds on which it can be harmonized with Jones
are not at all clear.
It is also worth noting that the facts in Rosenbach
place it several steps away from this case. In
Rosenbach, the plaintiff’s son provided his
thumbprint for scanning by the defendant.
Rosenbach, 2017 IL App (2d) 170317, ¶ 7. As the
Spokeo order discussed, an express request for a
fingerprint scan is a far cry from the situation here,

59a
where plaintiffs plausibly argue that simply using
Facebook or reading Facebook’s user policy did not
put them on notice that Facebook was collecting
their biometric data. See Patel, 2018 WL 1050154, at
*5 (distinguishing fingerprinting cases). Indeed, an
Illinois trial court has applied Rosenbach to dismiss
a BIPA case precisely because the plaintiff expressly
allowed defendants to take a fingerprint scan and so
could not plead an invasion of privacy. Rottner v.
Palm Beach Tan, Inc., et al., No. 15 CH 16695 (Ill.
Cir. Ct. Mar. 2, 2018) (available at Dkt. No. 315-1).
Consequently, if Rosenbach were to be read as
Facebook urges, persuasive data convinces the Court
it would not be a good prediction of how the Illinois
Supreme Court would interpret “aggrieved” under
BIPA. It follows that Facebook has not demonstrated
on the basis of Rosenbach that a predominance of
individual inquiries would defeat class certification.
Facebook’s other commonality and predominance
objections also pose no certification bar. Facebook
raises an “extraterritoriality” contention based on
the assertion that its servers are not located within
Illinois. The parties agree that BIPA does not have
extraterritorial reach because no “clear intent in this
respect appears from the express provisions of the
statute,” Avery v. State Farm Mut. Auto. Ins. Co., 216
Il1.2d 100, 185 (Ill. 2005), but disagree how that
applies here.1

1

Facebook raises a similar argument in its motion for
summary judgment. The Court considers it here with respect to
certification only.

60a
There is no genuine dispute that this case is deeply
rooted in Illinois. The named plaintiffs are located in
Illinois along with all of the proposed class members,
and the claims are based on the application of Illinois
law to use of Facebook mainly in Illinois. As the
Court found in a prior order, the case is properly
governed by Illinois law pursuant to California
choice of law principles, In re Facebook Biometric
Info. Privacy Litig., 185 F. Supp. 3d 1155, 1169 (N.D.
Cal. 2016), and Facebook does not contest the
application of Illinois law in opposing class
certification. None of the class members are nonresidents suing under Illinois law, which is the
paradigmatic situation for the presumption against
the extraterritorial application of local law. See, e.g.,
Avery, 216 Ill.2d at 187. Facebook has not tendered
any evidence to indicate that the circumstances
relating to the challenged conduct did not occur
“primarily and substantially within” Illinois. Id.
Class members do not need to show more in order to
sue under BIPA, particularly in light of BIPA’s
express concerns about data collection by “[m]ajor
national corporations,” 740 Ill. Comp. Stat. Ann.
14/5(b). See Morrison v. Nat’l Australia Bank Ltd.,
561 U.S. 247, 267 (2010) (territoriality inquiry looks
to the “objects of the statute’s solicitude”).
Contrary to Facebook’s suggestion, the geographic
location of its data servers is not a dispositive factor.
Server location may be one factor in the territoriality
inquiry, but it is not the exclusive one. As Avery
cautions, “focusing solely on [only one circumstance]
. . . can create questionable results” where “the bulk
of the circumstances . . . occur within Illinois.” Avery,
216 Ill.2d at 186; see also Rivera v. Google Inc., 238

61a
F. Supp. 3d 1088, 1102 (N.D. Ill. 2017) (in BIPA face
scan context, even if “the scanning takes place
outside of Illinois, that would not necessarily be
dispositive”). Avery’s warning is particularly apt here
because the functionality and reach of modern online
services
like
Facebook’s
cannot
be
compartmentalized into neat geographic boxes.
Making the geographic coordinates of a server the
most important circumstance in fixing the location of
an Internet company’s conduct would yield the
questionable results Avery counsels against. Among
other problematic outcomes, it would effectively gut
the ability of states without server sites to apply
their consumer protection laws to residents for
online activity that occurred substantially within
their borders. See Rocky Mountain Farmers Union v.
Corey, 730 F.3d 1070, 1104 (9th Cir. 2013) (state
cannot “impose its own regulatory standards on
another jurisdiction” but “may regulate with
reference to local harms”). Correlatively, a singleminded focus on server location would also
potentially nationalize the consumer protection laws
of states that host servers, which in this case
includes California. Both outcomes are fraught with
unintended and undesirable consequences.
Facebook also suggests that the claims of some
class members may only be peripherally related to
Illinois. It says for example that some class members
might have just moved to Illinois with face templates
created elsewhere. Dkt. No. 285 at 18. Maybe so, but
Facebook does not offer anything other than its own
conjecture on this point, and mere “speculation”
about class variability “does not meet [defendant’s]
burden of demonstrating that individual . . . issues

62a
predominate.” Gutierrez v. Wells Fargo Bank, NA,
704 F.3d 712, 729 (9th Cir. 2012).
As a final contention, Facebook says that
predominance
cannot
be
found
because
individualized inquiries may be necessary to
determine which users’ face templates were derived
from scans of paper photographs. This too is
unavailing. Assuming for discussion purposes only
that a class member’s claim could turn on whether
an uploaded photograph was taken by a digital
versus film camera, Facebook simply asserts with no
accompanying evidence that “[m]any photos
uploaded to Facebook fit that description.” Dkt. No.
285 at 19. Conclusory allegations with no support in
the record will not defeat commonality and
predominance. Brickman, 2017 WL 5569827, at *5.
C. Superiority
The closing consideration for certification is
whether any fairness or practical case management
reasons count against it. “Rule 23(b)(3) requires that
a class action be ‘superior to other available methods
for fairly and efficiently adjudicating the
controversy,’ and it specifically mandates that courts
consider ‘the likely difficulties in managing a class
action.’” Briseno v. ConAgra Foods, Inc., 844 F.3d
1121, 1127-28 (9th Cir. 2017).
A class action is clearly superior to individual
proceedings here. While not trivial, BIPA’s statutory
damages are not enough to incentivize individual
plaintiffs given the high costs of pursuing discovery
on Facebook’s software and code base and Facebook’s
willingness to litigate the case. Just Film, 847 F.3d

63a
at 1123. The class will be manageable because
members can be identified in a straightforward way.
Facebook has collected a wealth of data on its users,
including self-reported residency and IP addresses.
See Dkt. No. 255 at 7. Facebook does not argue that
determining the location of Facebook users with face
templates would be unduly difficult or subject to
significant uncertainty.
Facebook seems to believe that a class action is not
superior because statutory damages could amount to
billions of dollars. Dkt. No. 285 at 20. To be sure,
class certification may be inappropriate where it
would result in damages inconsistent with legislative
intent. Bateman v. Am. Multi-Cinema, Inc., 623 F.3d
708, 722-23 (9th Cir. 2010); Kline v. Coldwell, Banker
& Co., 508 F.2d 226, 235 (9th Cir. 1974). But the
Illinois legislature knows how to speak clearly when
it wants to foreclose class actions. See, e.g., 35 Ill.
Comp. Stat. 200/23-15(a) (“no complaint shall be filed
as a class action”). Facebook suggests that BIPA’s
limitation of relief to “aggrieved” persons bespeaks a
reluctance to impose hefty penalties on noncompliant companies, but it offers no evidence or
cogent explanation in support of that claim, and to
the extent it relies on Rosenbach, the argument is
rejected for the previously stated reasons. In
addition, substantial damages are not a reason to
decline class certification because it is within the
Court’s discretion to reduce a liquidated damages
award to comport with due process at a later stage of
the proceedings. See, e.g., Six (6) Mexican Workers v.
Arizona Citrus Growers, 904 F.2d 1301, 1309 (9th
Cir. 1990).

64a
CONCLUSION
The Court certifies a class of Facebook users
located in Illinois for whom Facebook created and
stored a face template after June 7, 2011.
IT IS SO ORDERED.
Dated: April 16 2018
/s/ James Donato
JAMES DONATO
United States District Judge

65a
APPENDIX D
_________
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
_________
No. 18-15982
_________
NIMESH PATEL, INDIVIDUALLY AND ON BEHALF OF ALL
OTHERS SIMILARLY SITUATED; ET AL.,
Plaintiff-Appellees,
v.
FACEBOOK, INC.,
Defendant-Appellant.
_________
Filed: October 18, 2019
_________
D.C. No. 3:15-cv-03747-JD
Northern District of California, San Francisco
_________
ORDER
_________
Before: GOULD and IKUTA, Circuit Judges, and
PEARSON,* District Judge.
_________
Judge Gould and Judge Ikuta voted to deny the
petition for rehearing en banc and Judge Pearson so
*

The Honorable Benita Y. Pearson, United States District
Judge for the Northern District of Ohio, sitting by designation.

66a
recommended. The petition for rehearing en banc
was circulated to the judges of the court, and no
judge requested a vote for en banc consideration.
The petition for rehearing en banc is DENIED.

67a
APPENDIX E
_________
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
SAN FRANCISCO DIVISION
_________
IN RE FACEBOOK BIOMETRIC INFORMATION
PRIVACY LITIGATION
THIS DOCUMENT RELATES TO: ALL ACTIONS
_________
FREDERICK WILLIAM GULLEN, ON BEHALF OF HIMSELF
AND ALL OTHERS SIMILARLY SITUATED,
Plaintiff,
v.
FACEBOOK, INC.,
Defendant.
_________
DECLARATION OF OMRY YADAN IN
SUPPORT OF FACEBOOK, INC.’S MOTION
FOR SUMMARY JUDGMENT
_________
Master Docket No.: 3:15-CV-03747-JD
Hon. James Donato
Case No. 3:16-cv-00937-JD
_________
Filed: 12/08/2017
_________

68a
***
Facebook’s Data Centers
6. The computers, servers, and databases used to
provide services to people with Facebook accounts
are located in nine “Data Centers” maintained by
Facebook. Six Data Centers are located within the
United States, in (i) Prineville, Oregon (“PRN”), (ii)
Santa Clara, California (“SNC”), (iii) Altoona, Iowa
(“ATN”), (iv) Fort Worth, Texas (“FTW”), (v)
Ashburn, Virginia (“ASH”), and (vi) Forest City,
North Carolina (“FRC”). Attached as Exhibit 1
(FBBIPA_00044570) is a true and correct copy of
excerpts from an internal “Wiki” page maintained by
Facebook that shows the location of each current
Data Center, and additional data centers that are
now under construction.
7. None of Facebook’s Data Centers is located in
Illinois, nor has Facebook maintained any Data
Centers in Illinois at any point since Facebook first
began using facial-recognition technology in 2010.
Facebook is in the process of developing additional
Data Centers in the United States and in other
countries, but none is in Illinois.
8. In addition, none of the Facebook or former
Face.com employees involved in developing
Facebook’s facial-recognition technology, or the
facial-recognition technology that Facebook initially
licensed from Face.com, is based in Illinois, nor are
any of the Facebook employees who work with that
technology today based in Illinois. None of the work
that has ever been done to design, engineer, or

69a
implement Facebook’s facial-recognition technology
has taken place in Illinois.
***

70a
APPENDIX F
_________
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
SAN FRANCISCO DIVISION
_________
IN RE FACEBOOK BIOMETRIC INFORMATION
PRIVACY LITIGATION
THIS DOCUMENT RELATES TO: ALL ACTIONS
_________
Case No. 3:15-cv-03747-JD
Hon. James Donato
_________
**CONFIDENTIAL**
VOLUME II
VIDEOTAPED DEPOSITION OF NIMESH PATEL
Chicago, Illinois
Thursday, December 7, 2017
_________
[pp. 132:18-135:16]
***
Q. Has your use of Facebook changed at all since
you filed this lawsuit?
A.

No.

Q.

Do you avoid any features?

A.

No.

71a
Q. Have your photo uploading practices changed
at all since you filed this suit?
A.

No.

Q. When you upload photographs, do you tag
people?
A.

Yes.

Q. Do you tag more or less often since filing the
suit, or about the same?
A. Probably – I’m not sure. Don’t remember how I
did before.
Q. But you – currently you tag people with some
frequency?
A.

Yes.

MR. WILLIAMS: Objection. Form.
Q. And so, I just want to drill down on that a
little bit. So you receive tag suggestions when you
upload certain photographs; right?
A.

Yes.

Q. And do you – have you tagged friends based on
tag suggestions you receive?
A.

Yes.

Q.

Is that a helpful feature that Facebook offers?

MR. WILLIAMS: Objection. Form.
A.

It’s a nice feature.

Q. And you – it’s nice because it saves you the
trouble of having to manually tag one of your friends;
correct?
A.

Yeah, yes.

Q. But tag suggestions isn’t telling you any
information you don’t already know, is it?

72a
A.

No.

Q. Meaning you know – it’s showing you your
friends in the photographs; right?
A.

Right.

Q.

And you know what your friends look like?

A.

Yes.

Q. Do you receive notifications from Facebook if
another user tags you in a photograph?
A.

I don’t know.

Q. You’ve never received any type of notification
that’s –
A.

I might have, but I don’t remember.

Q. Do you find that to be a helpful feature,
knowing that other friends have tagged you?
A.

Yes.

Q. Have you ever contacted one of your friends
and asked them to remove a tag or a picture of you
from Facebook?
A.

No.

Q. When you – do you ever review the tags of
yourself?
A.

No.

Q. Are you aware that you can untag yourself
from posts?
A. I’m aware of it, but I’m not a hundred percent
sure.
Q.

But you’ve never done it?

A. No, I have never done it, at least that’s what I
remember.

73a
Q. You realize you can opt out of tag suggestions;
correct?
A.

I believe so.

Q.

But you’ve never done that, have you?

A.

No, I have not done that.

Q.

How come?

A.

Not sure.

Q.

Is it because you like the feature?

A.

The feature’s nice.
***

74a
APPENDIX G
_________
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
SAN FRANCISCO DIVISION
_________
IN RE FACEBOOK BIOMETRIC INFORMATION
PRIVACY LITIGATION
THIS DOCUMENT RELATES TO: ALL ACTIONS
_________
Case No. 3:15-cv-03747-JD
_________
CONFIDENTIAL
VOLUME II
VIDEOTAPED DEPOSITION OF CARLO LICATA
Chicago, Illinois
Tuesday, October 24, 2017
_________
[p. 146:13-24]
***
Q. Do you believe that you’ve been harmed at all
by tag suggestions?
A.

I’m unaware if I ever have or not.

Q. Okay. So that means -- are you aware of losing
any money because of facial recognition or tag
suggestions on Facebook?
A.

No, I’m not.

75a
Q.

Losing any property?

A.

No.

Q. Are you aware of any other harm because of
facial recognition or tag suggestions on Facebook?
A.

Not to my knowledge.
***

76a
APPENDIX H
_________
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
SAN FRANCISCO DIVISION
_________
IN RE FACEBOOK BIOMETRIC INFORMATION
PRIVACY LITIGATION
THIS DOCUMENT RELATES TO: ALL ACTIONS
_________
Case No. 3:15-cv-03747-JD
_________
CONFIDENTIAL
VOLUME II
VIDEOTAPED DEPOSITION OF ADAM PEZEN
Chicago, Illinois
Tuesday, October 24, 2017
_________
[pp. 172:7-174:21]
***
Q. Okay. Do you feel you’re being harmed in some
way by tag suggestion?
A.

Harmed? Um --

MR. RHODES: Objection to the extent it calls for
a legal conclusion.
Go ahead.

77a
A. Being that I don’t know details behind it, I -yeah, I could only speculate as to the actual risk.
That’s sort of my concern.
Q. But as you sit there, can you identify any
actual harm you’ve suffered because of tag
suggestion?
MR. RHODES: Objection. Vague. Calls for a legal
conclusion.
A. I’m neither a doctor nor a psychiatrist either. I
couldn’t say.
Q. Are you able to articulate any injuries you’re
seeking to recover for?
MR. RHODES: Same objections.
A.

I’m articulate.

Q.

No.

A.

Again --

Q. I’m asking you, like, can you list for me the
injuries you’re looking to recover for?
A.

It would --

MR. RHODES: Objection.
A. Yeah, it would all be -- it’s -- it’s information that
I’m looking for. It’s not knowing what is going on
more than injuries.
Q. Okay. So you can’t identify any particular
injury, it’s just you want more information from
Facebook?
MR. RHODES:
testimony.
Q.

Objection.

Is that what you’re saying?

Mischaracterizes

78a
A. Um, if I or someone else were being harmed,
the fact that -- through this process of facial data
collection, it’s all the more reason that that be made
explicit, the collection.
Q. But I want to move out of the realm of
speculation. You started your answer with “if
someone was being harmed.” I want to know if you
actually have been harmed. Are you able to identify
for me any type of harm you’ve actually suffered?
MR. RHODES: Objection. Compound. Vague.
Calls for a legal conclusion.
Q. Have you
suggestions?
A.

lost

money

because

of

tag

of

tag

I don’t know.

Q. Have you
suggestions?

lost

property

because

A. I don’t know. I mean, and these things seem
totally plausible in certain circumstances, but it
would all be speculation.
Q.

Okay. So, and I don’t want you to speculate.

A.

Yes.

Q. Can you identify any money or property you
have lost because of tag suggestions?
A.

No.

Q. Okay. Can you identify any other harm that
has occurred to you because of tag suggestions?
MR. RHODES: Objection. Vague. Calls for a legal
conclusion.
A.

I personally, no.
***

